Audit of USAID/Dominican Republic’s
 Housing Reconstruction Activities


        Audit Report No. 1-517-01-001-P
               December 1, 2000




          Regional Inspector General
                San Salvador
             U.S. AGENCY FOR
             INTERNATIONAL
              DEVELOPMENT

             RIG/San Salvador


             December 1, 2000


             MEMORANDUM

             FOR:               USAID/Dominican Republic Director, Elena Brineman

             FROM:              RIG/A/San Salvador, Timothy E. Cox

             SUBJECT:           Audit of USAID/Dominican Republic’s Housing
                                Reconstruction Activities (Report No. 1-517-01-001-P)

             This memorandum is our report on the subject audit. In finalizing the
             report, we considered your comments on the draft report. Your comments
             on the draft report are included in Appendix II.

             This report contains one recommendation for your action. Based on the
             information provided by the Mission, final action has been taken for
             Recommendation No. 1.1 and a management decision has been reached on
             the Recommendation No. 1.2. A determination of final action for
             Recommendation No. 1.2 will be made by the Office of Management
             Planning and Innovation (M/MPI/MIC) when planned corrective actions
             are completed.

             I appreciate the cooperation extended to my staff during the audit.



Background   Hurricane Georges struck the Dominican Republic in September 1998 with
             heavy winds and rain which covered nearly 70 percent of the country.
             Damage to the housing sector was one of the major effects of the storm. The
             Dominican government reported that 170,000 houses, about ten percent of
             the country’s housing stock, were damaged by the hurricane, including
             49,000 that were completely destroyed.




             Page 1 of 12                                  Audit Report No. 1-517-01-001-P
                    In May 1999, Congress passed the Emergency Supplemental Appropriations
                    Act, creating the Central America and the Caribbean Emergency Disaster
                    Recovery Fund (CACEDRF), which contained a total of $621 million in
                    reconstruction assistance for countries hit by Hurricanes Mitch and Georges
                    and for earthquake damages in Colombia. Due to the extent of damage
                    caused by the hurricane, the Dominican Republic received $29 million of the
                    $621 million.

                    To combat the effects of the hurricane, USAID/Dominican Republic and the
                    Dominican government signed a Limited Scope Grant Agreement (grant),
                    dated February 17, 1999, for the “Hurricane Georges Reconstruction
                    Program.” The original agreement was for $7.5 million from development
                    assistance and child survival funds. The grant was amended on August 3,
                    1999 to include the $29 million in CACEDRF funds, for a total of $36.5
                    million.

                    Under the grant, USAID/Dominican Republic included a housing activity to
                    repair and reconstruct the homes of hurricane victims. In order to implement
                    this activity, USAID/Dominican Republic signed a $7.8 million cooperative
                    agreement with the Cooperative Housing Foundation. This agreement was
                    subsequently amended to increase the funding to $8,267,000:

                         Budget Item      USAID Amount           Cost Sharing         Total
                     Housing Construction
                     Sub-Awards             $6,791,547            $2,325,000       $9,116,547
                     Other Costs             1,475,453                     0        1,475,453
                     Total                  $8,267,000            $2,325,000      $10,592,000

                    USAID/Dominican Republic’s cooperative agreement with CHF provides
                    for the construction of 2,250 homes and the repair of 2,750 damaged
                    homes. CHF is to make sub-awards with Dominican non-governmental
                    organizations (NGOs) that have the technical capacity to build new homes
                    and repair damaged homes.



Audit Objectives As part of its fiscal year 2000 audit plan, the Regional Inspector
                    General/San Salvador performed an audit to answer the following
                    questions:

                    h       Are USAID/Dominican Republic’s housing reconstruction activities
                            on schedule to achieve the planned outputs?

                    h       Has USAID/Dominican Republic implemented an adequate
                            monitoring system for its housing reconstruction activities?




                    Page 2 of 12                                  Audit Report No. 1-517-01-001-P
                The audit scope and methodology is presented in Appendix I.



Audit Finding   Are     USAID/Dominican       Republic’s    housing
                reconstruction activities on schedule to achieve the
                planned outputs?
                For the new housing construction, USAID/Dominican Republic is currently
                on track to complete all construction activities on time. Current plans are to
                complete the 2,250 new houses by August 2001. However, for the housing
                repair activity, the Mission has decided to repair only 1,541 houses
                compared to the 2,750 houses in the approved work plan in order to focus on
                the inclusion of water and sanitation facilities for the new home construction.
                The changes in the strategy for this activity are discussed in more detail in
                the following section.

                The accomplishments under the housing reconstruction activity during the
                first 11 months of project implementation were significant. CHF has signed
                26 sub-agreements with 12 NGOs for construction of 1,402 houses and the
                repair of 1,291 houses—a total of 2,693 housing solutions—which is over
                half of the 5,000 houses in the approved work plan. Since construction
                began in April 2000, 596 new houses and 370 housing repairs have either
                been completed or are expected to be completed by September 30, 2000. In
                addition, CHF has stayed within the project budget by limiting new housing
                construction proposals to a cost of $2,500 per unit and housing repair
                proposals to $300 per unit. CHF requires that any costs above these levels
                must be absorbed by the implementing NGO as cost sharing. As of
                September 22, 2000, total disbursements to NGOs under the construction
                sub-agreements totaled $2.7 million.

                Change in Focus for USAID/Dominican Republic’s Housing
                Reconstruction Strategy

                During the life of the project, USAID/Dominican Republic has made
                several programmatic changes to the housing reconstruction activity,
                which have resulted in revised projected outputs. The primary change has
                been the decision to focus more on improving the quality of the new
                housing by providing basic water and sanitation facilities and reducing the
                number of repaired homes.

                When the program was initiated, the Mission did not include requirements
                that all new housing construction projects provide water and sanitation
                facilities. However, the Mission is now committed to provide such
                facilities in all of the remaining construction projects. Although the
                Mission increased the project funding by $467,000 for water and


                Page 3 of 12                                    Audit Report No. 1-517-01-001-P
sanitation, more funds will be needed for this purpose. For this reason, the
Mission has reprogrammed approximately $360,000 which became
available by reducing the number of repaired houses by 1,209. The
Mission has also received verbal agreement from the Dominican
government to provide cost sharing for water and sanitation in the
communities where USAID/Dominican Republic is funding new housing
construction. The successful completion of the housing reconstruction
activity could depend on obtaining this cost sharing contribution.

The Mission cited other reasons for de-emphasizing housing repairs and
focusing more on new housing communities. First, two years have passed
since Hurricane Georges and many of the houses needing repairs could or
should have already been repaired by other means. Also, the repair
programs are more difficult to implement and would take more time to
complete. The added complexity of housing repairs versus new home
construction is due to the fact that each of the repaired houses has unique
repair needs and, therefore, must be addressed on an individual basis. For
this reason, the Mission has decided to focus more on building new
housing communities which include proper water and sanitation facilities.
Also, better economies of scale can be achieved by building a large
number of houses in one place. Such communities also have a stronger
impact and more visible results than building or repairing houses spread
over a wide area.

Revisions Needed for Activity Work Plan and Cooperative
Agreement

The Mission’s decision to focus more on new housing construction with
water and sanitation facilities represents a significant change to the housing
reconstruction activity. While the original cooperative agreement and work
plan provided for the agreement to assist 5,000 families with rebuilding or
repairing their homes, the revised outputs will result in only 3,791 families
being assisted. The cooperative agreement should provide a written
understanding between USAID and CHF as to the expected outputs under
the agreement. Any significant changes to the expected outputs, such as
those mentioned above, should be formalized in writing between USAID
and CHF in order to establish a clearer understanding of the expectations of
both parties to the agreement.

Although both USAID/Dominican Republic and CHF officials expressed
their agreement with the reduced outputs, neither the Mission, nor CHF has
taken action to formalize these changes by revising the activity work plan or
the cooperative agreement. The Mission stated that the amendment has not
yet been made to the cooperative agreement or to the work plan because
Mission officials and CHF have been focusing on ensuring that the various
construction projects are initiated in a timely manner and that they are



Page 4 of 12                                   Audit Report No. 1-517-01-001-P
                designed and constructed in accordance with USAID/Dominican Republic’s
                housing reconstruction strategy. As a result of the above, we are making the
                following recommendation:

                        Recommendation No. 1:             We     recommend        that
                        USAID/Dominican Republic:

                        1.1    require the Cooperative Housing Foundation to
                               submit a revised work plan that accurately reflects
                               the planned housing reconstruction activity outputs
                               and meets the objectives of the Mission’s housing
                               reconstruction strategy; and

                        1.2    modify the Cooperative Housing Foundation
                               cooperative agreement to reflect the revised
                               outputs.


Audit Finding   Has USAID/Dominican Republic implemented an
                adequate monitoring system for its housing
                reconstruction activities?
                USAID/Dominican Republic has generally implemented an adequate
                monitoring system for the housing reconstruction activities. The Mission
                established a reconstruction team to implement the $36.5 million Hurricane
                Georges reconstruction program. The team consists of 13 individuals
                assigned full-time to the program and four others who are assigned part-time.
                The team includes a program manager who is assigned full-time to ensure
                proper implementation of the housing reconstruction activities. The program
                manager has worked closely with CHF to provide for design of housing
                projects that are consistent with USAID/Dominican Republic’s housing
                reconstruction strategy. The program manager and other individuals on the
                reconstruction team have made numerous site visits to the housing
                construction sites to ensure proper implementation of the project and to
                monitor progress towards project completion. In addition, the project budget
                includes funds for monitoring activities, such as personnel for project
                supervision, travel and per diem for site visits, and audits and evaluations.
                The Mission also contracted the services of the accounting firm of Horwath,
                Sotero Peralta & Asociados to perform a concurrent financial statement audit
                of the CHF agreement.

                We did note, however, a few areas in which the documentation of the project
                monitoring could be more effective. For example, Mission officials have not
                documented their visits to housing reconstruction sites via the use of trip
                reports or other documentation. In addition, the substantial involvement
                clause of the CHF cooperative agreement requires, among other things, that


                Page 5 of 12                                   Audit Report No. 1-517-01-001-P
                 USAID/Dominican Republic approve the sub-awards between CHF and the
                 NGOs. Mission approval of the housing construction work sites is also
                 required. Although the Mission has worked closely with CHF on the design
                 and implementation of the project, there was no documentary evidence of
                 these required approvals. Since the Mission is actively monitoring the
                 activity, we are not making a recommendation in this area; however, we
                 suggest the Mission take action to improve its documentation of the above-
                 mentioned monitoring activities.



Management       USAID/Dominican Republic’s management comments indicated that
Comments and     implementation has begun on our audit recommendation. Based on the
                 Mission’s comments, final action has been taken for Recommendation No.
Our Evaluation   1.1 and a management decision has been made for Recommendation No.
                 1.2.




                 Page 6 of 12                                 Audit Report No. 1-517-01-001-P
                                                                                 Appendix I


Scope and     Scope
Methodology
              We audited USAID/Dominican Republic’s housing reconstruction activities
              in accordance with generally accepted government auditing standards. The
              audit was conducted at USAID/Dominican Republic from September 5, 2000
              through September 22, 2000.

              The housing reconstruction activity had two categories of planned outputs to
              be completed by September 30, 2001: 2,250 new houses constructed and
              2,750 damaged houses repaired. Tables I through III in Appendix III contain
              a detailed listing of the housing reconstruction sites to be executed by the
              Cooperative Housing Foundation (CHF) through sub-agreements with local
              non-governmental organizations (NGOs).

              Methodology

              To answer the audit objectives, we interviewed responsible officials at
              USAID/Dominican Republic, as well as CHF and implementing NGOs. In
              addition, we reviewed relevant documentation obtained from
              USAID/Dominican Republic and CHF.

              To determine whether housing reconstruction activities were on schedule to
              achieve planned outputs, we reviewed documentation at USAID/Dominican
              Republic which included project design documents and the limited scope
              grant agreement and its annexes including the project’s activity description.
              These documents provided the activity’s funding, listed the expected outputs
              and identified the activity timeframe. We reviewed CHF progress reports that
              included work plans and milestones for achieving the planned outputs. We
              reviewed sub-agreement financial information from CHF to obtain current
              reconstruction costs.

              In addition, we performed site visits to the construction areas to determine the
              extent of progress made to date on the construction activities. We visited 13
              of the 25 housing reconstruction sites and one of the six housing repair sites.
              We randomly selected three of the 14 sites visited using probability
              proportional to size sampling, in which the probability of a site’s selection
              was proportional to the number of houses being constructed at the site. The
              three randomly selected sites were: (1) San Pedro de Macoris, (2) Haina
              Duey, and (3) the housing repair site in Bayaguana. We visited six other sites
              that were in the same areas of the country as the three randomly selected sites.
              An additional five sites were visited on two trips previously programmed by
              USAID/Dominican Republic. Tables I through III of Appendix III contain
              listings of all housing reconstruction and repair sites, indicating those we
              visited.

              To determine whether USAID/Dominican Republic had implemented an


              Page 7 of 12                                    Audit Report No. 1-517-01-001-P
                                                                 Appendix I

adequate monitoring system for the activity, we interviewed
USAID/Dominican Republic project officials to determine what monitoring
mechanisms are in place. In addition, we reviewed the project budget to
determine the level of resources budgeted for monitoring project activities as
well as reviewing the cooperative agreement with CHF to determine if the
Mission has complied with the agreement’s substantial involvement clause.




Page 8 of 12                                  Audit Report No. 1-517-01-001-P
                                Appendix II




Page 9 of 12   Audit Report No. 1-517-01-001-P
                                 Appendix II




Page 10 of 12   Audit Report No. 1-517-01-001-P
                                                                                              Appendix III

                                             TABLE I
                Cooperative Housing Foundation In-Situ Housing Reconstruction Sites

                                                   Number
                              Implementing           of                          Completion           Site
        Site Name                 NGO              Houses       Start Date         Date               Visit
 Los Alcarrizos I                   IDDI               53        April 2000     August 2000             4
 San Pedro de Macoris               IDDI               90        May 2000      September 2000           4
 San Luis                           IDDI               73        May 2000      September 2000
 Los Negros                    CII-Viviendas           32        May 2000      September 2000           4
 San Rafael de Yuma            CII-Viviendas           68        May 2000       October 2000            4
 Boca de Yuma                  CII-Viviendas           33        May 2000      September 2000           4
 Haina Duey                    CII-Viviendas           90        May 2000      November 2000            4
 Barahona                    Plan International       150        June 2000      October 2000            4
 Villa Altagracia                   IDDI              127        June 2000     November 2000
 Villa Altagracia               World Vision           50        June 2000      October 2000            4
 Hato Mayor                         IDDI               84        July 2000     December 2000
 El Naranjal                     ADESJO                53        July 2000     November 2000
 Los Guandules               Ciudad Alternativa        26        July 2000     November 2000
 Los Alcarrizos II                  IDDI               80       August 2000    December 2000            4
 Jarabacoa                         MUDE                40       August 2000    December 2000
 Sabana Grande de Boya           COTEDO                25       August 2000    November 2000            4
 Bayaguana                     CII-Viviendas           70       August 2000     January 2001            4
 Sabana Perdida              Ciudad Alternativa        26       August 2000    November 2000
 San Juan de la Maguana          FUDECO                40       August 2000     January 2001
 Total                                               1210

Note: In-Situ housing sites refer to those where new houses are constructed in the same site as
the house that was destroyed or damaged by Hurricane Georges


                                            TABLE II
                  Cooperative Housing Foundation New Housing Development Sites

                          Implementing      Number of                            Completion           Site
      Site Name               NGO            Houses            Start Date          Date               Visit
 El Tamarindo I            Centro Bono              60          June 2000        October 2000
 Nuevo Cepillo I           FUNDASEP                132          July 2000        January 2001           4
 Bayahibe                     IDDI                 250        November 2000      August 2001
 Batey Gautier                IDDI                 189         October 2000       June 2001
 El Tamarindo II           Centro Bono             200         October 2000        April 2001
 Nuevo Cepillo II          FUNDASEP                134        February 2001       June 2001             4
 To Be Determined                                   75                             July 2001
 Total                                            1040


                                                  TABLE III

Page 11 of 12                                                                 Audit Report No. 1-517-01-001-P
                                                                                       Appendix III

                Cooperative Housing Foundation Housing Repair Project Sites

                      Implementing         Number of                       Completion           Site
    Site Name             NGO               Houses        Start Date         Date               Visit
 Jarabacoa               MUDE                 250          May 2000       November 2000
 Various
 Communities              IDDI                491        June 2000        November 2000
 Bayaguana        Children International      250       August 2000          May 2001            4
 San Jose de Ocoa       ADESJO                300      September 2000        May 2001
 Los Conucos              IDDI                125       October 2000       January 2001
 Constanza               MUDE                 125       October 2000      February 2001
 Total                                       1541


IDDI – Instituto Dominicano de Desarrollo Integral
CII-Viviendas – Consejo Inter-Institucional para la Coordinación de Programas de Viviendas, Inc.
ADESJO – Asociación para el Desarrollo de San José de Ocoa
MUDE – Mujeres en Desarrollo, Inc.
COTEDO – Comisión de Trabajo Ecuménico Dominicano
FUDECO – Fundación de Desarrollo Comunitario
FUNDASEP – Fundación de Desarrollo Azua, San Juan, Elías Piñas, Inc.




Page 12 of 12                                                          Audit Report No. 1-517-01-001-P
